           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



    SUITABILITY OF INDIVIDUALS
             ACTING AS
     REPRESENTATIVE PAYEES



    October 2003   A-02-03-13032




 AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                           SOCIAL SECURITY
MEMORANDUM
Date:   October 6, 2003                                                                  Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Suitability of Individuals Acting as Representative Payees (A-02-03-13032)



        Our objective was to determine whether the Social Security Administration (SSA) had
        adequate controls to identify and prevent individuals who had representative payees1
        from serving as payees for other beneficiaries.

        BACKGROUND

        Congress granted SSA the authority to appoint Rep Payees to receive and manage
        beneficiaries’ payments if the beneficiaries2 cannot manage or direct the management
        of their benefits because of their youth or mental and/or physical impairments.3 Payees
        can be appointed for Old-Age, Survivors and Disability Insurance (OASDI) or
        Supplemental Security Income (SSI) beneficiaries and may be individuals or
        organizations.4

        About 7.6 million individuals have Rep Payees—approximately 4.5 million are OASDI
        beneficiaries, 2.3 million are SSI recipients, and 800,000 are entitled to both OASDI
        benefits and SSI payments. The following chart reflects the types of Payees and the
        number of individuals they serve.5




        1
            In this report, both “Rep Payee” and “Payee” are used in lieu of Representative Payee.
        2
          Throughout this report, the term “beneficiary” is used to collectively refer to OASDI beneficiaries and SSI
        recipients.
        3
         Sections 205(j)(1) and 1631(a)(2)(A)(ii) of the Social Security Act, as amended [42 U.S.C. §§ 405(j)(1)
        and 1383(a)(2)(A)(ii)].
        4
            Id.
        5
            Master Representative Payee File as of January 2003.
Page 2 - The Commissioner



                                                          Number                   Number of
               Type of Payee                             of Payees             Individuals Served
Individual Payees: Parents, Spouses,
Adult Children, Relatives, and Others                     5,333,200                       6,685,100
Organizational Payees: State Institutions,
Local Governments and Others                                  41,500                       807,400
Organizational Payees: Fee-for-Service                           900                       104,200
     TOTAL                                                5,375,600                       7,596,700


A Payee’s duties6 include

•     using benefits to meet the beneficiary’s current and foreseeable needs;
•     conserving and investing benefits not needed to meet the beneficiary’s current
      needs;
•     maintaining account records;
•     reporting events to SSA that may affect the beneficiary’s entitlement or benefit
      payment amount;
•     reporting any changes in circumstances that would affect their performance as a
      Rep Payee; and
•     providing SSA an annual Rep Payee report accounting for how benefits were spent
      and invested.

Additionally, Congress requires that SSA provide for specific identification of all Payees
and the beneficiaries they serve.7 The Representative Payee System (RPS) was
created in 1992 to provide a nation-wide database of Payee information. The on-line
portion of RPS consists of 152 unique screens through which users can input Rep
Payee applications, change data for existing Payees, and change Payee relationships.
RPS was intended to provide field office personnel with immediate access to vital
information about Payees to assist employees in making good Rep Payee decisions
and prevent fraud. All Payee applications are stored in the Master Representative
Payee File (MRPF), which is an integral part of RPS.

We have previously reported8 that beneficiaries who had Payees themselves were
serving as Rep Payees, despite SSA’s policy prohibiting this practice.9 In response to
our report, effective November 17, 2001, SSA changed RPS to generate an alert during

6
 20 C.F.R. §§404.2035 and 416.635; Program Operations Manual System (POMS), section GN
00502.113C.
7
 Omnibus Budget Reconciliation Act of 1990, Pub. L. No. 101-508, § 5105(b) (codified at
section 205(j)(3)of the Social Security Act, as amended [42 U.S.C. §§ 405(j)(3)].
8
 Office of the Inspector General Early Alert, Representative Payees Who Have Representative Payees,
March 2, 2001.
9
    POMS, section GN 00502.130B.
Page 3 - The Commissioner


the Rep Payee application process and an adjudicative edit during the selection process
when an applicant is a beneficiary with a Payee or the applicant is trying to become a
Payee for a beneficiary serving as a Payee. These changes were designed to prevent
the completion of such a Rep Payee appointment. Additionally, SSA initiated a review
of over 4,600 potential instances of beneficiaries with Payees who were also serving as
Rep Payees. This work was performed in two phases—in September 2001 and
June 2002. Phase I started on September 24, 2001 and identified 3,809 cases. Phase
II started on June 24, 2002 and identified 835 cases.

SCOPE AND METHODOLOGY
We obtained data extracts from SSA’s Master Beneficiary Record (MBR) of 48 million
OASDI beneficiaries receiving payments as of August 2002 and SSA’s Supplemental
Security Record (SSR) of 8.35 million SSI recipients receiving payments as of March
2003. We then matched the Social Security numbers from these two extracts against
SSA’s MRPF to identify individuals who had Rep Payees and who were Payees for
other individuals at the same time. As of September 2002, the MRPF contained
5.45 million active or pending Payees.

The match between our MBR and SSR data extracts and the MRPF, as well as our
subsequent analysis of these data files, identified 7,025 and 5,652 potential cases,
respectively, of individuals who had Payees and were Payees for other beneficiaries at
the same time. See Appendix B for details of our sampling methodology and results.

To test the controls over the Rep Payee application process, we duplicated the
application process in the training mode of RPS. We attempted to complete Payee
applications for individuals who were unsuitable to serve as Payees to determine
whether the system had edits in place to prevent such transactions.

We determined the computer processed data from the MBR, SSR, RPS, and MRPF to
be sufficiently reliable for our intended use. We conducted tests to determine the
completeness and accuracy of the data. These tests allowed us to assess the reliability
of the data and achieve our audit objectives.

We conducted our audit at our New York office and SSA Headquarters in Baltimore,
Maryland, between February and May 2003. The entities audited were the Office of
Disability and Supplemental Security Income Systems under the Deputy Commissioner
for Systems and SSA’s field offices under the Deputy Commissioner for Operations.
Our audit was performed in accordance with generally accepted government auditing
standards.
Page 4 - The Commissioner


RESULTS OF REVIEW
Our tests of the controls over the Rep Payee application process concluded that SSA
did not prevent the completion of all unsuitable Rep Payee applications. SSA’s policies
state that someone who has a Rep Payee should not be a Payee. Simply, it is
unreasonable to allow a beneficiary determined to be incapable of managing his or her
own funds to be a Rep Payee responsible for managing another beneficiary’s funds.
However, based on our review of 200 sample cases, we estimate that approximately
1,730 individuals had Rep Payees and were Payees for other beneficiaries at the same
time. Further, if these Rep Payees are not changed, we estimate they will manage
$7.6 million in OASDI or SSI payments over the next 12 months.

REPRESENTATIVE PAYEES WHO HAD PAYEES

From a statistical
sample of 200 cases,
we identified                    Figure 1: Sample Results
28 individuals with Rep
                                                10%           Rep Payees with Payees
Payees who were
                                                      4%      (10%)
Payees for other
                                                        4%
beneficiaries at the
                                                              Rep Payees with Payees
same time. Of these                                           Corrected Prior to Audit (4%)
28 cases, 20 continued
to have Rep Payees                                            Rep Payees with Payees for
while acting as Payees                                        Suspended Beneficiaries
for others at the time of                                     (4%)
our review. The                                               Sample Cases Not in Error
remaining eight cases                                         (82%)
                                   82%
were in error for a
period of time but had
been corrected by
June 2003. On average, the 28 individuals in our sample with Rep Payees had served
as Payees for other beneficiaries for 46 months (as of May 2003).

Our review also disclosed seven cases of individuals with Rep Payees who were also
Payees for other beneficiaries, but those beneficiaries’ payments had been suspended
at the time of our audit. If the beneficiaries’ payments resume and the current Rep
Payees continue to serve, these seven beneficiaries will have Payees who, at the same
time, have Payees themselves. These seven cases were not identified in SSA’s
nation-wide review of Rep Payees.

Four cases within our sample were part of SSA’s nation-wide review. All four cases
were reviewed in both Phases I and II. In one case, SSA determined that no Payee
change was required even though we determined the case was in error. In the
remaining three cases, SSA determined a change in Rep Payee was needed; however,
no Payee changes had been made by the time of our review.
Page 5 - The Commissioner


REPRESENTATIVE PAYEE SYSTEM ENHANCEMENTS

As part of its November 2001 RPS maintenance release, SSA changed RPS to
generate an alert during the Rep Payee application process and an adjudicative edit
during the selection process when an applicant is a beneficiary with a Payee or the
applicant is trying to become a Payee for a beneficiary serving as a Payee. We
duplicated the application process in the training mode of RPS and found that alerts
were generated for cases involving beneficiaries with Rep Payees applying to become
Payees. In our tests, alerts stating, “APPLICANT IS A BENEFICIARY WITH A REP
PAYEE-CAN NOT SELECT” were generated when the applications were taken, and
RPS did not allow for their completion.

We also concluded RPS prevented the completion of the application process for
individuals attempting to become Payees for beneficiaries serving as Payees. In these
cases, alerts were generated stating, “BENEFICIARY IS PAYEE FOR ANOTHER
BENEFICIARY-CAN NOT SELECT” when the applications were taken.

Our review disclosed one OASDI case and one SSI case where the applicants had Rep
Payees and were selected as Payees after the date of the system enhancement. We
consulted SSA staff to determine why this occurred.

   •   In the OASDI case, RPS did not recognize the beneficiary had a Rep Payee.
       The Rep Payee’s application was completed outside of RPS, so the system did
       not contain any information indicating a Payee had been established. Therefore,
       when the beneficiary applied to become a Payee, RPS did not realize the
       applicant had a Payee, and an alert was not generated.

   •   In the SSI case, the recipient had a Rep Payee and applied to become a Payee
       for another recipient in March 2000. The Rep Payee was selected and was
       placed in the system as “Ready to Process.” However, the other recipient did not
       begin to receive benefits until March 2002, after the date of the system
       enhancement. According to SSA staff, since the Payee application was
       completed and “Ready to Process” before the system enhancement date, an
       alert was not generated when the other recipient began receiving benefits. While
       SSA staff believes this scenario allowed the case to be processed, our review
       found a different date of selection for the Payee. According to our review of the
       SSR and RPS, the recipient with a Payee became a Payee for the other recipient
       in March 2002, after the date of the RPS enhancements.
Page 6 - The Commissioner


CONCLUSIONS AND RECOMMENDATIONS
While SSA attempted to identify and correct all cases of beneficiaries with Rep Payees
who serve as Payees, we found that SSA’s initiative did not identify all such cases.
Additionally, we confirmed that SSA instituted new system enhancements to prevent
future beneficiaries with Payees from becoming Payees. While we observed within the
training module that new controls were in place, we identified two cases where
beneficiaries with Rep Payees became Payees after the date of the system
enhancement.

We recommend that SSA:

1. Review the selection criteria used to identify cases of beneficiaries who have Rep
   Payees and are Payees for other beneficiaries to determine why all such cases were
   not identified in the two phases of its previous initiatives.

2. Identify and correct all current cases of beneficiaries with Rep Payees who serve as
   Payees.

3. Conduct periodic reviews to identify and correct any instances where beneficiaries
   who have Rep Payees are Payees for other beneficiaries and determine whether
   any additional actions are required to prevent future cases from being processed.

AGENCY COMMENTS
SSA agreed with all of our recommendations and has already taken action to implement
our first two recommendations. For the third recommendation, SSA plans to conduct
the next periodic review to identify and correct any beneficiaries who have Rep Payees
and are Payees in August 2004. We commend SSA for its quick response to our
recommendations. See Appendix C for the text of SSA’s comments.




                                               James G. Huse, Jr.
                                                Appendices
APPENDIX A – Acronyms

APPENDIX B – Sampling Methodology and Results

APPENDIX C – Agency Comments

APPENDIX D – OIG Contacts and Staff Acknowledgments
                                                          Appendix A
Acronyms

MBR         Master Beneficiary Record
MRPF        Master Representative Payee File
OASDI       Old-Age, Survivors and Disability Insurance
OIG         Office of the Inspector General
POMS        Program Operations Manual System
Rep Payee   Representative Payee
RPS         Representative Payee System
SSA         Social Security Administration
SSI         Supplemental Security Income
SSN         Social Security Number
SSR         Supplemental Security Record
                                                                                 Appendix B
Sampling Methodology and Results
To complete our objective, we obtained from the Social Security Administration’s (SSA)
Master Beneficiary Record (MBR) a data extract of 48 million Old-Age, Survivors and
Disability Insurance (OASDI) beneficiaries receiving payments as of August 2002 and,
from the Supplemental Security Record (SSR), 8.35 million Supplemental Security
Income (SSI) recipients receiving payments as of March 2003.

We matched the Social Security numbers (SSN) from these two extracts against SSA’s
Master Representative Payee File (MRPF) to identify individuals who had
representative payees (Rep Payee) and were Rep Payees for other individuals. Our
MRPF extract contained 5.45 million active or pending Rep Payees, as of September
2002. Matching the MBR and SSR to the MRPF, we identified 7,025 potential OASDI
and 5,652 potential SSI cases where individuals who had Rep Payees were serving as
Payees for other beneficiaries at the same time. We selected random samples from
each group of potential cases for detailed review and performed the following analyses.

   Selected a random sample of 100 OASDI beneficiaries and 100 SSI recipients from
    the cases that had the potential of meeting our criteria of having Rep Payees and
    serving as Rep Payees for other beneficiaries at the same time.

   Obtained queries from the MBR, SSR, and MRPF for our 200 sample cases.

   Compared the MBR and SSR queries to the MRPF queries to determine whether the
    sample cases met our criteria.1

   For those cases that met our criteria, determined the period of time the Rep Payee
    had a Payee, whether the condition continued at the time of our audit and the
    amount of benefits the Rep Payee managed in January 2003.

   Compared cases that met our criteria to the listing of cases in Phases I and II of
    SSA’s Nation-wide review of beneficiaries who had Rep Payees and were Payees
    for other individuals receiving either OASDI and/or SSI benefit payments at the
    same time. Based on this comparison, determined whether any of our sample cases
    were reviewed by SSA and what, if any, actions were taken to correct each case.

   Determined whether any Payees were appointed after the enhancements to the
    Representative Payee System (RPS) were established in November 17, 2001 that
    prevented individuals with Rep Payees from being selected as Payees for other
    individuals. If such cases occurred, consulted with SSA staff to determine how the
    RPS controls were avoided.

1
  Our review of the MRPF indicated numerous instances of inaccurate data consisting mainly of the use of
the beneficiary’s SSN instead of the Rep Payee’s SSN. We also found cases where MRPF records were
not updated to reflect the current Rep Payee’s SSN.

                                                  B-1
    In the training mode, input information for several of our Rep Payee cases to test the
     newly implemented controls within RPS to prevent the beneficiary with a Payee from
     becoming a Payee.



                          Sample Results, Projections and Estimates

                                                    OASDI                  SSI           Total
    Population size                                   7,025                 5,652         12,677
    Sample size                                         100                   100            200
    Sampled cases where
    beneficiaries with Payees also                           11                  17           28
    served as Rep Payees for others
    Projection of cases (point                             773                   961        1,734
    estimate)with
    Projection lower limit                                 443                631
    Projection upper limit                               1,230              1,376
    January 2003 payment amount for
    the 8 OASDI and 12 SSI sample
    cases where beneficiaries with                      $ 3,943           $ 6,350        $10,293
    Payees also served as Rep
    Payees for others at the time of
    our review
    Projection of January 2003                     $ 276,975           $ 358,891        $635,866
    payment amount (point estimate)
    Projection lower limit                          $ 99,505            $192,099
    Projection upper limit                         $ 454,444           $ 525,683
    Estimate of the amount of
    payments Rep Payees who had
    Payees will manage over the                   $3,323,700         $4,306,692        $7,630,392
    following 12 months if the Payees
    are not changed (point estimate X
    12 months)
     Note: All projections were calculated at the 90-percent confidence level.




                                                  B-2
                  Appendix C
Agency Comments
                                    SOCIAL SECURITY
MEMORANDUM                                                                            35-24-1029


Date:      September 24, 2003                                                  Refer To: S1J-3

To:         James G. Huse, Jr.
            Inspector General

From:       Larry W. Dye     /s/
            Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report, “Suitability of Individuals Acting as
           Representative Payees” (A-02-03-13032)--INFORMATION


           We appreciate the OIG's efforts in conducting this review. Our comments on the report
           content and recommendations are attached.

           Please let us know if we can be of further assistance. Staff questions can be referred to
           Trudy Williams at extension 50380.

           Attachment:
           SSA Response

           S1J-3:TWilliams 9/11/03
           22002075DI




                                                       C-1
COMMENTS OF THE SOCIAL SECURITY ADMINISTRATION (SSA) ON THE
OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT REPORT, “SUITABILITY
OF INDIVIDUALS ACTING AS REPRESENTATIVE PAYEES” (A-02-03-13032)


Thank you for the opportunity to review and comment on the subject draft report.

OIG’s objective for this audit was to determine whether SSA has adequate controls to identify
and prevent individuals who had representative payees (Rep Payees) from serving as payees for
other beneficiaries.

Agency policy is that an individual, who we have determined is incapable of managing or
directing the management of their own monthly payments, cannot serve as a payee for someone
else. As a direct result of a prior OIG report, “Information System Control of SSA’s
Representative Payee System” (A-44-01-31051), the Agency implemented an edit to the
Representative Payee System (RPS) that prevents this from happening. We also identified
existing cases where individuals who had Rep Payees were serving as Rep Payees for other
beneficiaries and took corrective action. As a result of continuing discussions with OIG, we
modified the selection criteria for these cases and identified additional cases for review. Our
response to the specific recommendations is provided below.


Recommendation 1

SSA should review the selection criteria used to identify cases of beneficiaries who have Rep
Payees and are Payees for other beneficiaries to determine why all such cases were not identified
in the two phases of its previous initiatives.

SSA Comment

We agree and have already taken action to do this. Revised software was used to identify over
1,500 suspect cases and the cases have recently been released to the field for review and
corrective action.

Recommendation 2

SSA should identify and correct all current cases of beneficiaries with Rep Payees who serve as
Payees.

SSA Comment

We agree and action has been taken to identify the suspect cases and post them to an intranet site
for control. We have also reissued processing instructions to appropriate operating components.
SSA’s Office of Systems has identified 1,559 cases for review. All work should be completed
by November 28, 2003.



                                               C-2
Recommendation 3

SSA should conduct periodic reviews to identify and correct any instances where beneficiaries
who have Rep Payees are Payees for other beneficiaries and determine whether any additional
actions are required to prevent future cases from being processed.

SSA Comment

We agree and plan to conduct the next review in August 2004.


[SSA provided additional comments which have been addressed in this report.]




                                              C-3
                                                                        Appendix D
OIG Contacts and Staff Acknowledgments
OIG Contacts
   Rona Rustigian, Director, (617) 565-1819

   Timothy Nee, Deputy Director, (212) 264-5295

Staff Acknowledgments

In addition to those named above:

    Stephen Liebman, Senior Auditor

    Denise Ramirez, Program Analyst

    Kevin Joyce, Computer Specialist

    Charles Zaepfel, Computer Specialist


For additional copies of this report, please visit our web site at http://www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 966-1375.
Refer to common identification number A-02-03-13032.
                          DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                   Overview of the Office of the Inspector General


                                        Office of Audit
The Office of Audit (OA) conducts comprehensive financial and performance audits of the
Social Security Administration’s (SSA) programs and makes recommendations to ensure that
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers' Act of 1990, assess whether SSA’s financial statements fairly present
the Agency’s financial position, results of operations and cash flow. Performance audits review
the economy, efficiency and effectiveness of SSA’s programs. OA also conducts short-term
management and program evaluations focused on issues of concern to SSA, Congress and the
general public. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency, rather than detecting problems after they occur.

                              Office of Executive Operations
The Office of Executive Operations (OEO) supports the Office of the Inspector General (OIG)
by providing information resource management; systems security; and the coordination of
budget, procurement, telecommunications, facilities and equipment, and human resources. In
addition, this office is the focal point for the OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act. OEO is also responsible for performing internal reviews to ensure
that OIG offices nationwide hold themselves to the same rigorous standards that we expect from
SSA, as well as conducting investigations of OIG employees, when necessary. Finally, OEO
administers OIG’s public affairs, media, and interagency activities, coordinates responses to
Congressional requests for information, and also communicates OIG’s planned and current
activities and their results to the Commissioner and Congress.

                                  Office of Investigations
The Office of Investigations (OI) conducts and coordinates investigative activity related to fraud,
waste, abuse, and mismanagement of SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representative payees, third
parties, and by SSA employees in the performance of their duties. OI also conducts joint
investigations with other Federal, State, and local law enforcement agencies.

                            Counsel to the Inspector General
The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: 1) statutes, regulations, legislation, and policy directives
governing the administration of SSA’s programs; 2) investigative procedures and techniques;
and 3) legal implications and conclusions to be drawn from audit and investigative material
produced by the OIG. The Counsel’s office also administers the civil monetary penalty program.
